HHS/OIG, Audit -"Audit of Costs and Reporting Funds Under the Bioterrorism Hospital Preparedness Program - Ohio
Department of Health,"(A-05-04-00052)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs and Reporting Funds Under the Bioterrorism Hospital Preparedness Program - Ohio Department of Health," (A-05-04-00052)
February 14, 2005
Complete
Text of Report is available in PDF format (152 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our audit were to determine whether the State agency: recorded and reported Health Resources and Services
Administration (HRSA) hospital preparedness program funds in accordance with the cooperative agreement; ensured that the
hospital preparedness program funds were used for necessary, reasonable, allocable, and allowable costs under the terms
of the cooperative agreement; and did not supplant current State or local funding with hospital preparedness program funds.
We determined that the State agency properly recorded and reported hospital preparedness program funds awarded, expended,
obligated, and unobligated in accordance with the cooperative agreement; ensured that hospital preparedness program funds
were used for necessary, reasonable, allocable, and allowable costs under the terms of the cooperative agreement; and did
not supplant current State or local expenditures with hospital preparedness program funds.We recommend that the State agency
ensure hospital preparedness program activities are funded in a manner to minimize unobligated fund balances and to achieve
hospital preparedness program goals.  The State agency agreed with the findings and recommendations.